:

CERTIFICATE OF COMPLIANCE
No.:

Iri Re Christopher Gary Baylor,

ON EMERGENCY PETITION FOR A WRIT OF MANDAMUS TO THE
UNITED STATES EIGHTH CIRCUIT COURT OF APPEALS

As required by Supreme Court Rule 33.1(h), I certify that the
petition for a writ of mandamus contains 4,686 words, excluding the
parts of the petition that are exempted by Supreme Court Rule 33.1(d)
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on January 19, 2021

;

:

